Memorandum No. D-2009-RAM-001      June 23, 2009




     Results From Assessment of DoD's Plans for
        Implementing the Requirements of the
   American Recovery and Reinvestment Act of 2009
Additional Information
To obtain additional copies of this assessment, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/recovery/index.html or contact the
Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703)
604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ECIP                          Energy Conservation Investment Program
FSRM                          Facilities Sustainment, Restoration, and Modernization
                                Program
MILCON                        Military Construction Program
NTEET                         Near Term Energy-Efficient Technologies Program
OMB                           Office of Management and Budget
USD(C)/DOD CFO                Under Secretary of Defense (Comptroller)/DoD Chief
                                Financial Officer
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE 

                                  400 ARMY NAVY DRIVE 

                             ARLINGTON , VIRGINIA 22202-4704 


                                                                    June 23, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 DOD CHIEF FINANCIAL OFFICER

SUBJECT: 	 Results From Assessment of DoD ' s Plans for Implementing the
           Requirements of the American Recovery and Reinvestment Act of 2009
           (Report No. D-2009-RAM-001)


This assessment provides observations from our review ofthe DoD agency-wide and the
four program-specific plans for implementing the American Recovery and Reinvestment
Act of2009. We will issue a follow-up memorandum to discuss our observations on the
fifth plan, the Homeowners Assistance Program, as it has not yet been completed. We
will continue to review DoD's progress and issue subsequent assessments that will
discuss our evaluation of DoD's implementation of the Recovery Act.

We appreciate the courtesies extended to the staff. Please direct questions to
Mr. Daniel R. Blair at (703) 601-5886 (DSN 329-5886).




                                    Mary L. gon 

                                Deputy Inspector General 

                                      for Auditing 

  Memorandum No. D-2009-RAM-001 Project No. D2009-D000FH-0167.000                June 23, 2009

                 Results From Assessment of DoD’s Plans for
                 Implementing the Requirements of the American
                 Recovery and Reinvestment Act of 2009


What We Did                                           What We Found
Our objective was to determine whether the            The DoD Agency plan and the four program-
DoD planned and implemented Public Law                specific plans met the minimum OMB
111-5, American Recovery and Reinvestment             requirements. Specifically, the program-
Act of 2009 (Recovery Act), February 17, 2009,        specific plans addressed the 12 required
by meeting the requirements in the Act and the        elements in OMB M-09-15 requirements.
Office of Management and Budget (OMB)                 Based on our assessment, DoD generally
Memorandum (M-09-15) “Updated                         incorporated the observations we made on the
Implementing Guidance for the American                draft plans that addressed the areas needing
Recovery and Reinvestment Act of 2009,”               improvement.
April 3, 2009.

In May, we provided our observations to the
Office of the Under Secretary of Defense
(Comptroller) Deputy Comptroller (Strategy,
Capabilities, and Acquisition) on the draft DoD
agency-wide and program-specific plans that, if
implemented, would strengthen the plans by
fully addressing OMB requirements. For the
final DoD plans, we assessed whether they

      addressed the observations we and OMB
       provided earlier and
      fully complied with OMB M-09-15.




                                                  i
Introduction
Objective
Our objective was to determine whether DoD planned and implemented the Recovery
Act by meeting the requirements in the Act and OMB M-09-15. Specifically, we
reviewed the DoD agency-wide and four program-specific plans to assess whether they
included the minimum requirements in OMB M-09-15, sections 2.7, 2.8, and appendix 3
when applicable. See Appendix A for a discussion of our scope and methodology.

Background
In passing Public Law 111-5, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most affected by the recession;
provide investments to increase economic efficiency through technological advances in
science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also provided unprecedented efforts to ensure the
responsible distribution of funds for the Act’s purposes and to provide transparency and
accountability of expenditures so that the public would know how, when, and where tax
dollars were being spent. Further, the Recovery Act stated that the President and the
heads of Federal departments and agencies were to manage and expend the funds made
available in the Act to achieve its purpose, which included commencing expenditures for
activities as quickly as possible, consistent with prudent management.

Under the Recovery Act, Congress appropriated $7.4 billion to DoD for the following
programs: Energy Conservation Investment (ECIP); Facilities Sustainment, Restoration,
and Modernization (FSRM); Homeowners Assistance Program; Military Construction
(MILCON); and Near Term Energy-Efficient Technologies (NTEET). See Table 1.

      Table 1. DoD Agency-Wide and Program-Specific Recovery Act Plans
                              Plan                            Amount
                                                           (in thousands)
    Energy Conservation Investment Program                         $120,000
    Facilities Sustainment, Restoration, and Modernization         4,260,393
    Program
    Homeowners Assistance Program*                                   555,000
    Military Construction Program                                  2,184,607
    Near Term Energy-Efficient Technologies Program                  300,000
    Total: DoD Agency-Wide Program                                $7,420,000
   Note: DoD has not yet issued the Homeowners Assistance Program plan; consequently, we will
   issue a follow-up memorandum on our assessment of the plan once it is issued.




                                                 1
Requirements for Recovery Act Plans
OMB M-09-15 requires Federal agencies to effectively manage their activities under the
Recovery Act. It also required agencies to submit preliminary agency-wide and program-
specific implementation plans to OMB no later than May 1, 2009, and to post the final
plans on www.recovery.gov by May 15, 2009.

Agency-Wide Plans
OMB M-09-15, section 2.7 requires agency-wide plans to provide a description of the
coordination efforts of different parts in the agency. OMB M-09-15, appendix 3, part 2.I
provides additional required elements to include in the plans. See Table 2.

                 Table 2. Required Elements for Agency-Wide Plans
      Element                                Information Required
Broad Recovery      Include a description of broad recovery goals in terms of the
Goals               Recovery Act, including outputs, outcomes, or expected
                    efficiencies.
List of Recovery    List each program that is receiving money from the Recovery Act.
Programs Within     Each program must have its own program plan.
the Agency
Funding Table       Capture the agency plan for obligations and gross outlays in the
                    funding table. Agency financial reporting will capture the actual
                    funding.
Competition on      Review past competition achievements and describe the steps taken
Contracts           and planned to maximize competition wherever practicable for
                    contracts funded under the Recovery Act. The plan is to include a
                    projection of the expected rate of competition based on anticipated
                    Recovery Act dollars (not number of contracts) and the rationale for
                    the projection. If the agency projects a decline in the rate of
                    competition, the plan is to address steps to be taken, by fiscal
                    quarter, to address this. Agencies should achieve increased
                    competition rates over time.
Contract Type       Review the use of fixed-price contracts as a percentage of all dollars
(excludes           spent and describe the steps taken and planned to maximize the use
contracts under     of fixed-price contracts wherever practicable for contracts funded
grants)             under the Recovery Act. The plan is to include a projection of the
                    expected use of fixed-price contracts based on anticipated Recovery
                    Act dollars (not number of contracts) and the rationale for the
                    projection. If the agency projects a decline, the plan is to address
                    steps to be taken, by fiscal quarter, to address this. Agencies should
                    achieve increased use of fixed-price contracts over time.
Description of      Describe how the agency will review performance results and
Agency              engage senior leaders, including holding managers and strategic
Accountability      partners accountable for achieving goals and mitigating risks.
Mechanisms




                                            2
  Program-Specific Plans
  For program-specific plans, OMB M-09-15, section 2.8 requires that each plan must, at a
  minimum, include 12 required elements. See Table 3.

                  Table 3. Required Elements for Program-Specific Plans
      Element                                     Information Required
Accountability           Description of agency program plans for holding managers
                         accountable for achieving Recovery Act program goals and
                         improvement actions identified.
Activities               List of the kinds and scope of activities to be performed
                         (construction, service provision, research and development,
                         assistance to governmental units or individuals, and so on).
Barriers to Effective    List and description of statutory and regulatory requirements or other
Implementation           known matters, including personnel skill gaps, which may impede
                         effective implementation of Recovery Act activities, and proposed
                         solutions and completion dates.
Characteristics          List of the types of financial awards to be used (with estimated
                         amount of funding for each), targeted type of recipients,
                         beneficiaries, and estimated dollar amounts of total Recovery Act
                         funding for Federal in-house activity, non-Federal recipients, and
                         methodology for award selection.
Delivery Schedule        Schedule of the milestones for major phases of the program’s
                         activities (procurement phase, planning phase, project execution
                         phase, or comparable) with planned delivery date(s).
Environmental            Description of the plan for compliance with National Environmental
Review Compliance        Policy Act, National Historic Preservation Act, and related statutes,
                         including dependency of other project milestones on environmental
                         review processes and potential impact of environmental reviews on
                         project implementation.
Federal Infrastructure Description of agency plans to spend funds effectively to comply
Investments              with energy efficiency and green building requirements and to
                         demonstrate Federal leadership in sustainability, energy efficiency,
                         and reducing the agency’s environmental impact.
Funding Table            List of the agency funding by program, project, and activity
                         categories, as possible, and funds returned to the program or any
                         offsetting collections received as a result of carrying out Recovery
                         actions.




                                              3
      Element                                  Information Required
Measures              Description of expected quantifiable outcomes consistent with the
                      intent and requirements of the legislation and the risk management
                      requirements of section 3, “Governance, Risk Management, and
                      Program Integrity” with each outcome supported by corresponding
                      quantifiable output(s). Agencies must specify the length of the
                      period between measurements (monthly, quarterly), measurement
                      methodology, and how the results are to be made readily accessible
                      to the public. The measures used to report program performance in
                      relationship to the goals (consistent with Administration policy)
                      should be retained (in terms of incremental change against present
                      level of performance of related agency programs or
                      projects/activities specified in the plan). In addition to reducing
                      burden on grant recipients and contractors, use of existing measures
                      allows the public to see the marginal performance impact of
                      Recovery Act investments.
Monitoring/Evaluation Description of the agency process for periodic review of the
                      program’s progress to identify areas of high risk, high and low
                      performance, and any plans for longer term impact evaluation.
Objectives            Description of the program’s Recovery Act objectives and
                      relationships with corresponding goals and objectives through
                      ongoing agency programs/activities. Expected public benefits
                      should demonstrate cost-effectiveness and be clearly stated in
                      concise, clear, and plain language targeted to an audience with no in-
                      depth knowledge of the program. To the extent possible, Recovery
                      Act goals should be expressed in the same terms as programs’ goals
                      in departmental Government Performance Results Act strategic
                      plans.
Transparency          Description of agency program plans to organize program cost and
                      performance information available at applicable recipient levels.




                                             4
Assessment Results
The DoD agency-wide and the four program-specific plans addressed the minimum OMB
M-09-15 requirements. Based on our assessment, DoD generally incorporated the
observations we made on the draft plans that addressed the areas needing improvement to
comply with OMB requirements.


Observations on DoD Agency-Wide Plan
Compliance With OMB Requirements
The final DoD agency-wide plan addressed the minimum OMB M-09-15, section 2.7
requirements, including appendix 3, “Agency and Program Data Elements.” In addition,
the plan incorporated OMB’s comments on the draft DoD agency-wide plan. However,
even though the plan met the minimum OMB requirements, we made observations that
could further improve the plan. Specifically, we observed the following:

      Competition on Contract and Contract Type. We observed that the rationale
       for the projection could have provided additional details by explaining how the
       Military Departments acquisition plans provided the basis for the projection. The
       additional information would inform the public on DoD planning to ensure that
       contract awards using Recovery Act funds would be based on a merit-based
       selection process.

      Coordination. We suggested that when discussing the Military Services working
       group meetings, DoD should provide additional information, such as the agency
       overseeing the meetings as well as the frequency of those meetings. The
       additional information would improve transparency by providing objective
       information to the public.

      Description of Agency Accountability Mechanisms. We observed that the
       discussion on the Department’s oversight relied on the Risk Management Plan,
       developed by the Department in compliance with OMB Circular A-123,
       Management’s Responsibility for Internal Control, Appendix A. Providing a link
       or a copy of the Department’s current Risk Management Plan, Appendix A,
       would increase the transparency and accountability of the plan by showing the
       Department’s initiatives for implementing and monitoring the management of
       Recovery Act funds.


Observations on DoD Program-Specific Plans
Compliance With OMB Requirements
The DoD ECIP, FSRM, MILCON, and NTEET program-specific plans addressed the 12
minimum required elements in OMB M-09-15 section 2.8. See table 4.


                                           5
                  Table 4. Assessment Results of the Program-Specific Plans
OMB M-09-15                                       ECIP           FSRM            MILCON          NTEET
Required Plan Element                          ($120,000)*    ($4,260,393)     ($2,184,607)    ($300,000)
Funding Table–Provides funding listed              M               M                M              M
by program, project, and activity
Objectives–Describes Recovery Act                      M           M                M               M
objectives relative to ongoing program
activities
Activities–Lists kinds and scope of                    M           M                M               M
activities to be performed
Characteristics–Provides types and                     M           M                M               M
amounts of financial awards to be used
Delivery Schedule–Identifies milestones                M           M                M               M
for major phases of the program’s
activities
Environmental Review Compliance–                       M           M                M               M
Describes plans for environmental
compliance and relationship to program
milestones
Measures–Provides expected outcomes                    M           M                M               M
to assess program performance
Monitoring/Evaluation–Describes                        M           M                M               M
process for periodic review of program
progress
Transparency–Organizes and presents                    M           M                M               M
program cost and performance
information by recipient
Accountability–Describes methods for                   M           M                M               M
holding managers accountable for
Recovery Act goals and for implementing
identified improvements
Barriers to Effective Implementation–                  M           M                M               M
Lists statutory and regulatory
requirements that may impede
implementation and proposed solutions
Federal Infrastructure Investments–                    M           M                M               M
Plans to spend funds effectively to
comply with energy efficiency and green
building requirements
   * Dollar amounts in table are shown in thousands.

   Note: The cells marked “M” represent program-specific plan sections that complied with OMB M-09-15
   requirements.




                                                       6
Appendix A. Scope and Methodology
This is the first in a series of responses to the Recovery Act. We conducted this
assessment from March 2009 to June 2009 with limited use of generally accepted
government auditing standards. For this assessment, we followed the standards of
independence, supervision, sufficient evidence and reporting. Due to the unique
requirements of the Recovery Act, along with time limitations for planning and
completing this assessment, we did not fully comply with the fieldwork auditing
standards of assessing fraud risk, reviewing internal controls, and identifying data and
information system controls.

Generally accepted government auditing standards require that we plan and perform the
assessment to obtain sufficient, appropriate evidence to provide a reasonable basis for our
conclusions based on our assessment objectives. We believe that the evidence obtained
provides a reasonable basis for our conclusions based on our assessment objectives.

Before DoD submitted the final DoD agency-wide and program-specific plans to OMB,
we reviewed draft versions of the plans to determine whether they fully complied with
OMB M-09-15 requirements. We provided our preliminary observations to USD(C)
Deputy Comptroller (Strategy, Capabilities, and Acquisition) that, if implemented, would
strengthen the plans by fully addressing OMB requirements and helping to ensure the
plans provided sufficient transparent information to the general public. Specifically, we
determined whether the DoD agency-wide and program-specific plans complied, at a
minimum, with OMB M-09-15, sections 2.7 and 2.8. For the final DoD plans, we
assessed whether they included earlier observations we and OMB provided and fully
complied with OMB M-09-15. For our analysis of funds appropriated to DoD, we
obtained support documentation, such as warrants and reports, to validate the funds
reported by the Under Secretary of Defense (Comptroller) in the DoD agency-wide plan.

During the assessment, we coordinated with other agencies by attending working group
meetings and providing feedback on the assessment progress. We contacted officials to
obtain data and verify the information posted on the DoD Recovery Act Web site. In
addition, we met with personnel in the Office of the Under Secretary of Defense
(Comptroller)/DoD Chief Financial Officer (USD(C)/DoD CFO) to share information
and to obtain a better understanding of USD(C)/DoD CFO planning for the
implementation of the Recovery Act.




                                             7
